<html>
<title> - NUCLEAR POLLUTION IN THE ARCTIC: THE NEXT CHERNOBYL?</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


114 Congress                                                 Printed for the use of the
2nd Session		        	Commission on Security and Cooperation in Europe
________________________________________________________________________________________                                            

		NUCLEAR POLLUTION IN THE ARCTIC: THE NEXT CHERNOBYL?


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                                  November 15, 2016



				   Briefing of the
			Commission on Secruity and Cooperation in Europe
_________________________________________________________________________________________
				  
				  Washington : 2017



                       Commission on Security and Cooperation in Europe
                                  234 Ford House Office Building
                                      Washington, DC 20515
                                         202-225-1901
                                     <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d2c2d2d4f1dcd0d8dd9fd9dec4c2d49fd6dec7">[email&#160;protected]</a>
                                     http://www.csce.gov
                                        @HelsinkiComm



                                       Legislative Branch Commissioners

              HOUSE					 SENATE
CHRISTOPHER H. SMITH, New Jersey 		ROGER WICKER, Mississippi,
 Chairman					 Co-Chairman
ALCEE L. HASTINGS, Florida			BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama			JOHN BOOZMAN, Arkansas		
MICHAEL C. BURGESS, Texas			RICHARD BURR, North Carolina
STEVE COHEN, Tennessee			        JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida				TOM UDALL, New Mexico
RANDY HULTGREN, Illinois			SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
 New York
                       
                          Executive Branch Commissioners

                          	Department of State
                         ELISSA SLOTKIN, DEPARTMENT OF DEFENSE
                        ARUN M. KUMAR, DEPARTMENT OF COMMERCE
                                      (II)



    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.


	   NUCLEAR POLLUTION IN THE ARCTIC: THE NEXT CHERNOBYL?


                           November 15, 2016


                                  Page
                                  
                              PARTICIPANTS

    A. Paul Massaro III, Policy Advisor, Commission on Security and Cooperation in Europe

1

    Nils Bohmer, Managing Director, Bellona Foundation

2

    Julia Gourley, U.S. Senior Arctic Official, Department of State

5

    Jon Rahbek-Clemmensen, Visiting Fellow, Europe Program, Center for 
Strategic and International Studies

8

                                APPENDIX

    Slide presentation by Nils Bohmer

18


 
NUCLEAR POLLUTION IN THE ARCTIC: THE NEXT CHERNOBYL?

                              ----------                              

                           NOVEMBER 15, 2016


    The briefing was held at 3:30 p.m. in room 2325, Rayburn House 
Office Building, Washington, DC, A. Paul Massaro III, Policy Advisor, 
Commission on Security and Cooperation in Europe, moderating.
    Panelists present: A. Paul Massaro III, Policy Advisor, Commission 
on Security and Cooperation in Europe; Nils Bohmer, Managing Director, 
Bellona Foundation; Julia Gourley, U.S. Senior Arctic Official, 
Department of State; and Jon Rahbek-Clemmensen, Visiting Fellow, Europe 
Program, Center for Strategic and International Studies.

    Mr. Massaro. Good afternoon, ladies and gentlemen. Thank you all 
for coming today. Welcome to today's briefing on nuclear pollution in 
the Arctic. My name is Paul Massaro, and I'm a policy adviser 
responsible for economic and environmental issues at the Helsinki 
Commission.
    Although the headlines have been occupied with other matters as of 
late, the issue of nuclear pollution remains highly topical. Just last 
week, a diver off the coast of Canada may have discovered a nuclear 
weapon lost by the United States in 1950. Even though it appears this 
weapon is likely not a threat, it highlights the continued relevance of 
the issue, especially in the Arctic, where the concentration of nuclear 
material is significant.
    While the Arctic has in recent years received greater attention on 
the Hill, the issue of Arctic nuclear pollution has been noticeably 
less present. At today's briefing, we hope to gauge the level of danger 
associated with this threat, as well as examine the interests of the 
United States, Russia and other Arctic Council nations towards the 
region. Ideally, we will come away with a better understanding of what 
needs to be done in order to mitigate any potential environmental 
damage to the Arctic and beyond.
    We are grateful to have such distinguished panelists with us here 
today. Not only do they offer a diversity of subject area expertise on 
the Arctic, but they are from three separate Arctic Council nations, 
hailing from Norway, the United States and Denmark, respectively.
    First we have Nils Bohmer all the way from Oslo, Norway to be with 
us today. Mr. Bohmer is the managing director of the Bellona 
Foundation, a nongovernmental organization with offices in Norway, 
Russia and Belgium that focuses on Arctic environmental issues. As a 
nuclear physicist, Mr. Bohmer is Bellona's resident expert on 
radioactive waste, nuclear accidents and nuclear power.
    Next we have Julia Gourley, who, in her capacity as U.S. Senior 
Arctic Official at the State Department, serves as the primary U.S. 
representative to the Arctic Council. Ms. Gourley is responsible for a 
wide range of environmental, economic and political issues related to 
U.S. foreign policy interests in the Arctic. With the United States 
holding the chairmanship of the Arctic Council in 2016, she has 
undoubtedly had a very busy year.
    Finally, Jon Rahbek-Clemmensen joins us from CSIS's Europe program, 
where he is currently a visiting fellow. Mr. Rahbek-Clemmensen is also 
an assistant professor of political science at the University of 
Southern Denmark and is an expert on Arctic governance and geopolitics.
    I'd like now to give the floor to our panelists. Mr. Bohmer, if you 
would please start us off. I know the Bellona Foundation has been a 
leader on this subject, so I think we could all benefit enormously from 
hearing your insight on the current state of play and recommendations 
moving forward.
    Mr. Bohmer. Thank you, Paul.
    My name is Nils Bohmer. I am the nuclear physicist and also the 
general manager of the Bellona Foundation. I have been working with 
nuclear waste issues in Russia since 1993, so it's been a couple of 
decades with interesting times.
    Next slide, please. Next slide.
    The Bellona Foundation has an office in Murmansk, open since 1994. 
A colleague of mine, Mr. Alexander Nikitin, was arrested and threatened 
with espionage back in 1995 because of a report we wrote about the 
Russian Northern Fleet. All of the information was taken from open 
sources. And, after a five-year-long legal battle, he was totally 
acquitted in the Russian Supreme Court back in 2000. And that has made 
us quite recognized in Russia.
    And I think also the reports that we have written about the 
subject, especially in the 1990s, were very factual-based, and were 
also given a lot of credit by the Russian side; we were not only 
criticizing, but also documenting facts, and using those reports to 
create international attention, which has led to a lot of economic 
support to the cleanup that has been going on in that area over the 
latest decades.
    Next slide.
    Also, our focus has been, since we are relatively close to Russia, 
it has also been very important for us to be on the ground in Russia--
not only to look at satellite photos or Google maps, reading reports 
from Russia, but it's important for us to be on the ground to learn 
what is happening there.
    Russia has, among other things, 10 nuclear power plants, mostly in 
the western part of Russia. They have their nuclear weapons complex in 
the middle of Siberia--Mayak, Seversk and Zelenogorsk. And they also 
have an Arctic presence, mainly with their nuclear submarines. And 
especially the Kola Peninsula in northwest Russia has been very 
important because that has given Russia ice reports, which have been 
important for the strategic nuclear submarines to enter into the 
Barents Sea.
    There has also been a lot of dumping in the Arctic, especially 
Barents Sea and the Kara Sea, but also in the Japanese Sea.
    Next slide.
    In the 1990s, when Bellona started our work in northwest Russia, 
there was also a lot of focus on all of the laid-up submarines. There 
were about 70 to 80 nuclear submarines lying at shore, with the spent 
nuclear fuel inside; no plans for how to deal with the spent nuclear 
fuel. Run-down entities also included Chernobyl-type reactors; it was 
fairly accepted that none of these reactors could be upgraded to 
Western safety standards. There was a lot of dumped radioactive waste, 
submarine accidents, and also a large amount of legacy waste, 
especially in the west--the coastal naval base at Kola Peninsula.
     Next slide, please.
    But during the two decades since the early 1990s, there have been a 
lot of improvements in the situation. The picture you see here is an 
RTG, which is a radioisotope thermoelectric generator using radioactive 
waste, which creates heat, and they use that heat to create 
electricity, which then can be used to power lighthouses and radio 
beacons in the Arctic. The Soviet Union manufactured about 2,000 of 
these sources. In Russia, nearly all of the reactors--RTGs placed in 
Russian territory, most of them in the Arctic--have now been replaced 
with solar panels. And RTGs have been shipped to storage in Siberia, in 
Mayak.
    In northwest Russia, 120 nuclear submarines have been 
decommissioned and the spent nuclear fuel has been taken out. The spent 
fuel has been shipped to reprocessing in Mayak. And the bulk of the 
reactors have actually been brought onshore, at the Kola Peninsula. The 
dumping ended in 1994. And the safety for NPPs, the nuclear power 
plants, has been improved. But at the same time, they have prolonged 
the lifetime for those reactors, with some up to 30 years extra, but 
with maybe too little attention and too little focus on the safety 
upgrades. And, as I said, onshore compartments have been built.
    Next slide.
    Today there are about 20 to 25 nuclear submarines, operating out in 
the Barents Sea, both strategic submarines but also multi-purpose 
attack submarines. And there is also, as we speak, being built eight 
new nuclear submarines in the shipyard in Severodvinsk, and one more 
will start being built in December. So the Russian navy is heavily 
focusing on building new submarines, new infrastructure, and on being 
much more present in the Arctic.
    Next slide.
    Also, the Northern Sea Route put a lot of focus on the nuclear 
icebreaking capability in Russia. There are today five nuclear 
icebreakers in operation, and three more are being built. During recent 
years, there have been several fires, and also at least one incident of 
a coolant leak from one of these reactors onboard a nuclear icebreaker, 
showing that there is risk for accident also on the civilian naval 
fleet.
    And the picture you see here shows plans for some gigantic 
icebreakers that the Russians are planning to build in a decade or two. 
And the rationale behind building all these new icebreakers is to 
export gas from the Arctic facilities in Yamal over to Asia. And, of 
course, the Northern Sea Route would be a much more effective way of 
transporting that gas instead of going all the way around Europe.
    Next, please.
    But even though there has been a lot of work done, there is still a 
lot of remaining work. This picture shows the storage for the spent 
nuclear fuel from about 100 nuclear reactor cores in Andreeva Bay--40, 
50 kilometers away from the Norwegian border.
    There has been a lot of work done on infrastructure, building new 
cranes, new equipment, new roads, and new electricity at that facility. 
Next year they will be starting to remove that fuel from that facility. 
That work could also prove risky, because you see these tanks have been 
leaking water inside. Some of the fuel has been corroding, so a lot of 
this fuel is not possible to take out. It has not been possible to take 
them out for inspection, so we don't know what kind of condition this 
spent nuclear fuel is in.
    What we fear is that when you start to pull the fuel element out of 
those compartments where they are stuck, that you could risk the bottom 
falling out of the cylinder and you get a lot of uranium and you could 
have a critical accident, which then could lead to radioactive release 
to the atmosphere. So that is three to four years coming now, which 
will be very critical in figuring out how to safely withdraw that fuel 
from Andreeva Bay. And also some of the old nuclear icebreakers are 
going to be dismantled, some of which contain a lot of nuclear 
material.
    Next slide, please.
    Russia also dumped--or they don't call it ``dumped,'' they call it 
``stored''--especially when it comes to the reactor, they ``store.'' 
That is a way to treat reactors which have had a critical accident. So 
the reactors created radiation problems onshore, and then they made the 
decision to store them in the Kara Sea, close to Novaya Zemlya. And the 
depth of some of these reactors is only 40 meters deep, so it's 
technically easy to retrieve them if you have funding for that.
    The main focus on the Russian side are now the K-27 and the K-159, 
which sank outside of Murmansk Fjord in 2003. The reason--especially 
the reason for K-27 is that it's buried under quite shallow water, 30 
meters, and it also contains very highly enriched uranium. The Russian 
scientists say that if as little as eight liters of water comes into 
the reactor's core, then you could start a chain reaction, and that 
could start an uncontrolled heat production in that reactor. And it 
could then have such a massive explosion that you will expose the 
radioactivity inside the reactor to the air, and it could cause both 
contamination of the water but also contamination of the atmosphere. So 
that is one of the reasons why they are very focused on retrieving the 
K-27. But at the moment they don't have enough technical domestic 
capabilities to do that, and they're also lacking funding to do that. 
So they are trying to get countries like Norway to be a part of a 
funding proposal to lift those submarines.
    Next slide.
    What are the potential threats to the Arctic? Of course, as I said, 
the nuclear icebreakers have recently had a lot of fires and coolant 
accidents, meaning that there could be more severe accidents onboard 
those. The Russian submarines have a long history of accidents and 
fire. Most famous is the Kursk in 2000. That could happen again, either 
with one of the old submarines they have in operation or with some of 
the new submarines they will put in operation quite soon.
    There could also be leakage from the dumped material in the Kara 
Sea. About 90 percent of the radioactive material dumped is contained 
within seven of the reactors with the spent nuclear fuel, so it's 
fairly easy to recover 90 percent of the radioactive material by 
raising those. But, at the same time, that dumped material is dumped in 
the middle of an area where there is a lot of oil and gas, and there 
have been many oil and gas expeditions to try to find new oil and gas 
fields. And, of course, if you have radioactive waste and you could 
either drill in one of the drums with radioactive waste or you could 
have some kind of accident, which then of course will make that kind of 
situation risky.
    So even though there has been a lot of work done, like most of the 
submarines have been dismantled, there is still a lot of old legacy 
waste to be taken care of. And also there are new nuclear submarines 
and new nuclear icebreakers coming. So I think that for decades to come 
we will have a situation with a risk of Arctic pollution from Russian 
sources.
    And I think that concludes my speech.
    Mr. Massaro. All right. Well, thank you very much, Nils, for that 
fascinating presentation.
    I'd like now to give the floor to Julia. Thank you, Julia.
    Ms. Gourley. Thank you, Paul. And thanks for inviting me here to 
talk to you about nuclear pollution in the Arctic. As you heard from 
Nils and from Paul, it's a topic with a rich history in the Arctic, but 
also in the Arctic Council, which is the body I work in and which the 
United States is chairing, as Paul mentioned.
    My focus will be more on the environmental and health aspects of 
nuclear pollution in the Arctic. In fact, one of the working groups at 
the Arctic Council, called the Arctic Monitoring and Assessment 
Program, has, over the life of the Council, produced four successive 
scientific assessments of nuclear pollution in the Arctic. And its most 
recent one, concluding in 2015, was just released in published form 
earlier this year.
    From a health perspective and an environmental perspective, the 
good news is that the levels of anthropogenic or manmade radioactivity 
in the Arctic attributable to identifiable releases is low, and it's 
generally declining, which means that the risks to human health are 
likewise decreasing. And the releases that I'm talking about here that 
AMAP looked at are atmospheric nuclear tests conducted in the 1950s and 
1960s and the fallout resulting from that, nuclear fuel processing, 
historical dumping of radioactive waste--Nils was just talking about 
that--and, more recently, accidents at the Chernobyl and the Fukushima 
power plants.
    The reduction in risk to health and the environment is 
predominantly due to the natural decay in the radionuclides. The half-
lives are being reached in some cases. The natural decay is ongoing.
    And just to repeat a little bit of what Nils just said, good 
progress has been made in Russia on several fronts that have reduced 
risks to human health and the environment, including the 
decommissioning of radioisotope thermoelectric generators, or RTGs; 
nuclear submarines, such as the Kursk, the nuclear-waste vessel Lepse, 
which was used for unloading and temporary storage of spent nuclear 
fuel from nuclear icebreakers between 1963 and 1981, and since 1981 
it's been used as a floating storage unit for damaged spent nuclear 
fuel and solid and liquid radioactive wastes and related equipment. Its 
decommissioning has been a high priority for the Russian Government, 
and it's working toward that goal, which is a very good development; 
and, of course, the K-159 nuclear submarine that sank in 2003, that 
Nils also talked about, in the Barents Sea. As far as we know, there's 
no current leakage from the two reactors, although, of course, there is 
always concern about future leakage of highly enriched uranium and the 
conditions Nils was describing.
    Russia is also managing and remediating temporary waste storage 
sites in Gremikha and Andreeva Bay on the Kola Peninsula, also that 
Nils talked about. In fact, nearly all the spent nuclear fuel at the 
Gremikha facility has been removed, though the activity in Andreeva Bay 
is slow, and the same with the Mayak site, which I'm not even sure is 
under way yet, in northwestern Russia.
    So that was sort of the good news, as good news can get, on the 
nuclear front in Russia. In terms of the areas of concern, there are 
still some, of course, very troubling things to think about that will 
require vigilant monitoring for the foreseeable future. For example, 
the Arctic remains vulnerable to radioactive pollution from distant 
sources. The Fukushima disaster a few years ago generated a small and 
thankfully insignificant uptick in background atmospheric radiation 
levels in the Arctic, but it certainly underscores the importance of 
vigilance and that nuclear accidents in far-flung parts of the world 
can certainly affect the Arctic. And radiation can disperse very, very, 
very far distances.
    Another area of concern is related to legacy radioactive waste 
dumped in the Barents and Kara Seas, which could increase contamination 
levels in local Arctic waters if the drums deteriorate; highly dense 
sources of radioactivity from incomplete decommissioning of nuclear 
facilities and equipment and radioactive storage and substandard 
conditions in parts of the Arctic--parts of Russia--certainly continue 
to warrant long-term monitoring as well.
    Interestingly--well, as everyone knows, there's a lot of oil and 
gas in the Arctic. Nils showed a map of some of the areas where Russia 
is exploring off Novaya Zemlya. Extraction activities themselves often 
result in what's called TENORM, or technologically enhanced, naturally 
occurring radioactive materials. And although the science suggests that 
the risks from TENORM associated with oil and gas extraction are 
negligible, it's the produced water from these industrial practices 
that warrant further study, especially given that offshore activities 
will certainly pick up again when the prices of oil and gas come down.
    And parts of the Arctic are also rich in uranium deposits, 
especially in Canada and Greenland. And while there's no significant 
uranium mining and milling happening in those areas, if that changes, 
then, of course, the potential environmental and health impacts, 
including with respect to TENORM, will require more scientific study, 
because they're really not very well understood.
    Then a new and sort of growing area of research is tied to--of all 
things--the effects of climate change on the remobilization of 
radioactivity in the Arctic, which happens mainly through changes in 
the hydrologic cycle, the water cycle, thawing permafrost and declining 
snow cover and wildfires, all of which can disrupt the landscape 
sufficiently to trigger releases of naturally occurring and 
anthropogenic, manmade, radioactivity sources.
    So warming conditions in the Arctic could also release a 
significant amount of radon gas and associated radionuclides, which 
could, of course, be of concern to human health in local areas in 
Russia.
    I wanted to also talk for a minute about other Arctic Council 
activity, other than the Arctic Monitoring Assessment Program's health 
assessment, which just came. The Council has six working groups, of 
which AMAP is one. Another one, called the Emergency Prevention 
Preparedness and Response, or EPPR, working group works on, among other 
things, accidental releases into the Arctic environment of pollutants 
in general, focusing in particular on chemical and, to a lesser extent, 
biological and naturally occurring pollutants.
    Its focus right now is largely on oil-spill response in the marine 
environment because it's a more immediate concern, frankly, although 
we're having a pause in oil and gas development now, which is kind of 
allowing for a good opportunity to develop expertise in oil-spill 
response and other things like preparedness--prevention of oil spills 
and that sort of thing.
    But EPPR also has deep expertise in radiological matters in the 
Arctic. And among its work products, it's developed projects to address 
gaps in the knowledge base, best-
practice guidance, local emergency response plans, and risk-assessment 
methodologies for radiological accidents. It also has conducted actual 
tabletop exercises for radiological emergencies, training programs, and 
is focused in particular in Russia, because that's where, of course, 
the largest nuclear threat in the Arctic is.
    Through EPPR, our head of delegation to that working group is the 
National Nuclear Security Administration. And NNSA has actually co-
sponsored with Russia for many years a number of projects, including 
with Cooperative Threat Reduction funding, that include radiation 
exercises, radiological equipment upgrades, facility risk analyses, and 
site-specific information to aid first responders.
    Another Arctic Council working group, called the Arctic 
Contaminants Action Program, or ACAP for short, focuses on pollution 
remediation in general. Its past work has included demonstration 
projects on the ground in Russia to mitigate things like black carbon, 
mercury, persistent organic pollutants, obsolete pesticides, and these 
RTGs, these radionuclide thermo-reactor generator things--long name. 
[Laughs.] RTGs for short.
    And, of course, legacy hazardous waste in the Russian far east is 
something that we are concerned about in the Federal Government and in 
Alaska, because it's potentially problematic for Alaska. A lot of 
pollutants get into the environment. They can be transported, and 
there's not much space in the Bering Sea between the Russian far east 
and Alaska.
    So EPA, which is our head of delegation to that working group, has 
invested small amounts of resources in pollution remediation just 
across the Bering Strait. They also at EPA led some work under the 
Cooperative Threat Reduction Program with Russia on spent nuclear fuel 
containment, and also worked with DOD on some projects under what was 
the Arctic Military Environmental Cooperation forum, or AMEC, which no 
longer exists, but was a useful sort of mil-to-mil forum for 
environmental cooperation between the U.S., Russia, Norway and the U.K.
    I'll wrap up by noting that the effects of climate change in the 
Arctic extend to other pollutants than the ones that I talked about, 
and even to diseases. Earlier this year, Russia--some of you may have 
heard Russia experienced a mass die-off of reindeer in the Yamal 
Peninsula, which was directly a product of, or reaction to, thawing 
permafrost that exposed animal carcasses--reindeer carcasses--
containing anthrax. And the local reindeer population on the peninsula 
became exposed. About 2,500 of them died. The anthrax then crossed into 
the human population, and 28 people were hospitalized for anthrax and 
one young boy died from it.
    So there are certainly a lot of things that happen in the Arctic 
related to climate change that aren't completely in the headlines just 
yet. In fact, there are other graveyards on the permafrost throughout 
the Arctic, including Alaska and probably Canada and Greenland, that--
you know, bodies that have been buried that contain other diseases like 
smallpox and influenza and other diseases that could also potentially 
become exposed through thawing permafrost.
    There are all kinds of incidents like this that can become, in a 
way, a greater immediate concern than radiation problems, to the extent 
that contained radioactive waste on the seabed doesn't become 
dislocated through oil and gas activities or earthquakes or whatever.
    People don't really think about these kinds of consequences in 
rapidly warming Arctic conditions, but through the Arctic Council we 
are definitely focused on them and we'll continue to be focused on 
them, including environmental and scientific monitoring, for the 
foreseeable future.
    Thank you.
    Mr. Massaro. Well, thank you very much, Julia. And what an anecdote 
on the end there. My goodness.
    OK. Well, let me give the floor now to our last briefer, Jon 
Rahbek-Clemmensen. Jon, the floor is yours.
    Mr. Rahbek-Clemmensen. Thank you. And, first and foremost, thanks a 
lot for the invitation to speak here today about such a timely topic 
and to such a distinguished audience.
    I'm going to say a little bit about the link between geopolitics 
and nuclear waste management. And I'm basically going to say three 
things. First I'm going talk a little bit about what you would call the 
fundamentals of nuclear waste management. Then I'm going to talk a 
little bit about the geopolitics of the Arctic and Arctic cooperation 
as it is right now. And then I'm going to present two possible models 
for how you can expand nuclear waste governance in this region.
    If you take the first point, what are the most fundamental dynamics 
of nuclear waste management? The first and most fundamental point, 
which I think the two previous speakers also highlighted, is that it's 
all about getting Russia onboard. It's in Russia that we see 
significant waste. It's in Russia that we have problems handling waste. 
And it's in Russia that we really have low-hanging fruit.
    And if we look at the history of governance in this area, we see 
two things. We see that Russia has, on the one hand, been very 
unwilling to engage in cooperation with other nations when it comes to 
issues like this that are adjacent to defense and military affairs. But 
there has been some cooperation over the past 25 years. And Julia 
mentioned AMEC before, which I'll come back to again in a moment.
    And I think the key to get Russia engaged in this area is funding. 
If the Western countries can come with funding for technology 
development, if Western countries can come with actual expertise, and 
if Western countries can implement action cleanups, then it's actually 
possible to engage Russia. And Russia has thus far actually been 
willing to cooperate in this area. So funding seems to be absolutely 
key.
    Another necessary condition seems to be geopolitics. And it's no 
secret amongst any of us that in the past three years there's been some 
tension between Russia and the Western countries following the Ukraine 
crisis and the invasion of Crimea. The Arctic has been somewhat 
isolated from fallout from the Ukraine crisis. There has been a slight 
uptick in tensions. We've seen military exercises both by NATO, and 
especially by Russia, that's held a couple of fairly large flash 
exercises in the Barents Sea.
    Russia has expanded its military infrastructure in the region, 
although one should hesitate to ascribe that to the Ukraine crisis, 
because I think most analysts would argue that Russia would have 
expanded its military infrastructure either way. But on the other hand, 
there has been a lot of cooperation in the region, especially when it 
comes to civilian and diplomatic areas. So a lot of the work in the 
Arctic Council more or less continues as it did before. The Arctic 
Council was able to create a very productive declaration in 2015 up in 
Iqaluit. The continental shelf process continues as it has thus far 
before the crisis.
    So in that sense we see two tracks in Russia's policy. On the one 
hand, there are military tensions. There is a military buildup. But on 
the other hand, civilian and diplomatic cooperation continues.
    We don't know the future of East-West cooperation, especially after 
the presidential election. And perhaps we are moving towards a 
rapprochement. Perhaps we are moving towards a new Russia reset, 
although I'm sure that they won't call it that. [Laughter.]
    Basically, there are two models for how you can do nuclear waste 
management, and they more or less depend on the relationship between 
Russia and the United States. So I'll just go through them quickly.
    There's one model for if U.S.-Russian relations improve, and 
there's one model if we continue the status quo. If we see improved 
relations between Washington and Moscow, it becomes possible to develop 
what we'd call an extensive separate program for nuclear waste 
governance, basically a revamp of AMEC, as we talked about before.
    AMEC, the Arctic Military Environmental Cooperation, existed 
between 1996 and 2006-ish, and it consisted of Norway, the United 
States, and Russia and the United Kingdom for some part of the period. 
And it was a relatively successful cooperation that focused on these 
issues. They had some very concrete results. It was possible to invest 
heavily in containers for storage of spent naval fuels. It developed 
programs in waste processing technologies and radiation monitoring and 
a lot of other very concrete issues which I'm sure Nils knows a lot 
better than I do.
    And there are basically two reasons why it was very successful. The 
first reason was that it engaged what you could call local 
stakeholders, especially Norway because Norway has a very big stake in 
nuclear waste management. I don't think it's a coincidence that Nils's 
foundation is located in Oslo. And it goes back to, like, if you look 
at the Norwegian economy, when you think about the Norwegian economy, 
normally you think about oil and gas. But actually, fishing makes up a 
fairly substantial part of Norway's economy. And if you do a lot of 
fishing in the Bering Sea, you do not want newspaper stories about 
nuclear waste in those seas; people do not want to eat radioactive 
fish. And Norway, therefore, became very engaged in AMEC, and Norway 
was able to engage various funds in Europe and in the Nordic countries, 
and generate significant funds and significant expertise for nuclear 
waste management. So that was the first thing, engage local 
stakeholders.
    The second thing was that here in the U.S. it was possible to link 
nuclear waste management, which is, I guess, basically an environmental 
issue, with national security, especially strategic arms control and 
nonproliferation. AMEC became closely linked to the Nunn-Lugar 
Cooperative Threat Reduction and that created two advantages. First of 
all, it meant that it was possible to funnel funds from Nunn-Lugar to 
AMEC and use some of those funds to sponsor some of all these projects. 
And I can talk about why you can make that connection and why nuclear 
waste management is important for strategic arms control. So that was 
one advantage, more funds.
    The second advantage was that it was also possible to circumvent 
Russian restrictions. Russia can be kind of bureaucratic once in a 
while and it's--Norway at least experienced some problems with these 
projects when it came to importing different things to Russia. But the 
United States didn't have the same problem because the Nunn-Lugar whole 
cooperation system was made in a way where these restrictions couldn't 
apply, so that meant that Russia couldn't--the Russian bureaucracy had 
a hard time blocking all of these projects.
    And in a more simple way, it was just easier to implement all of 
these projects in AMEC because there were fewer parties. Fewer parties 
means that it's easier to make decisions and it's easier to actually 
implement projects.
    But, of course, there were some downsides to this extensive 
separate program model. It depends on a beneficial geopolitical 
environment. And as you all may know, the Ukraine crisis has closed 
down most strategic arms control with Russia. And that means that if we 
continue with the status quo, perhaps we have to look at a more humble 
or more narrow approach. And that will be basically what Julia just 
talked about, projects within the Arctic Council.
    The Arctic Council, as I said before, has survived the Ukraine 
crisis, cooperation has continued, and the Arctic Council has a lot of 
existing programs that can be beefed up to engage with these issues. 
You have, as Julia said, the containment action program, the monitoring 
and assessment program and the protection of Arctic marine environment, 
and other working groups that already look at these issues. And they 
can just be used to--they can just be beefed up, basically.
    Another option is to create a separate working group. These working 
groups are fairly easy to develop, but it's possible to create a new 
working group that could look specifically at nuclear waste management. 
And that approach has two advantages. It's possible to do during the 
Ukraine crisis, if the Ukraine crisis continues, and you don't have to 
invent a new framework, because the Arctic Council is an existing 
model. You can basically just plug and play into that model.
    But there are, of course, a couple of downsides to that approach. 
It's more difficult to get funding. It's more difficult to make issue 
linkage, which is one of the key ways you generate funding. And 
especially because when it comes to--if projects are put under an 
Arctic Council umbrella, it cannot be linked to national security 
because the Arctic Council doesn't do security. And if you keep it in 
the Arctic Council, there will be more actors involved. The Arctic 
Council has eight members. It has a bunch of indigenous groups as 
members. And it has a bunch of observers as well, and governance is 
just a little bit more complicated. But yeah, that's the key takeaway.
    It's possible to do something about nuclear waste management, even 
during the Ukraine crisis. If U.S.-Russian relations improve, you can 
do a more extensive, separate model, which would probably be more 
efficient. But even under the status quo, you can operate with a 
smaller model under the Arctic Council.
    Mr. Massaro. All right. Well, thank you very much, Jon.
    I guess we'll move now to the Q&A section. I'll start off with two 
questions and then I'll open it to the floor for additional questions.
    To begin, I guess this one is for anyone who would like to take the 
question. Has the United States made sufficient efforts to clean up our 
past issues with nuclear material in the Arctic and elsewhere, 
including nuclear submarines, the jettisoning of bombs, the Thule 
incident on Greenland, and any other related activity? Thank you.
    Why don't we start with Nils?
    Mr. Bohmer. Well, I'm not going to answer that question. No. But I 
just would like to emphasize that there has been a lot of discussion 
lately about the U.S. reactor at Greenland with the melting of the 
Greenland ice, and how are you guys going to solve that. And as far as 
I understand, it's a wait-and-see approach to that. I don't think that 
is a good approach. I think at least the funding, some be made 
available so that it's possible to do something with that reactor. So, 
it's not only Russia that has Arctic nuclear challenges there.
    Mr. Massaro. And with that we'll go to Julia or--[laughter]----
    Ms. Gourley. Luckily I don't work at DOD. [Laughter.] I don't have 
much sight on that except I have heard the term--the place in Greenland 
is called Camp Century. And it is the subject of lively debate right 
now. And I am happily ignorant of it all.
    But there's also, you know, there's also--we have the base at 
Thule, Greenland. And I think in the past there may have been some 
discovery of radiologicals in the ice underneath, so I think there 
might actually be some issues there as well. But DOD is dealing with it 
and I get to stay out of it. [Laughs.]
    Mr. Massaro. Jon?
    Mr. Rahbek-Clemmensen. I'll just chime in. For those of you who 
don't know the background: During the Cold War the U.S. built a base 
under the sea--under the ice in Greenland with a nuclear reactor, which 
is very cool and very ``Star Wars''-y. [Laughter.] But it unfortunately 
didn't work, because apparently ice moves, and when the base was left, 
the thought was that, OK, these nuclear materials will be stored in the 
ice and, therefore, will be safe in the long term. And in the meantime, 
we've had climate change and now there's a big discussion about whether 
or not these nuclear materials will spill out and contaminate the 
environment.
    And I would just add that solving that issue also plays into a very 
complicated triangular dynamic between the United States, Denmark and 
Greenland where there's a legacy of unfortunate incidents during the 
Cold War, which the autonomous government of Greenland holds against 
both the United States and Denmark. And it's a very complicated 
political environment to operate in. So, if the United States wants to 
flip the bill on this one, I'm pretty sure that the government in 
Copenhagen would be very happy.
    Mr. Massaro. Great. Well, thank you very much.
    And let me move on to the next question there. I think we can 
assume that all countries react more positively to, say, the urging or 
pressure from particular countries or institutions or in particular 
fora depending on the country. So, with regard to Russia and with 
regard to the nuclear pollution issue that they're dealing with, what 
countries or institutions or fora do they react best to? Where's the 
best place to pursue this?
    I guess we'll start up with Nils again and move down.
    Mr. Bohmer. Well, how do you mean pursue? Do you mean by with 
funding or with technical questions or with how to----
    Mr. Massaro. Let me just say in general and leave it there.
    Mr. Bohmer. OK. Well, OK, then I'll start with the funding and see 
how we go. There is some funding put aside in the EBRD, European Bank 
for Reconstruction and Development--there is a nuclear window there 
consisting of 150 million euros linked to the cleanup of the nuclear 
waste in the Arctic. And a lot of that will be going to deal with the 
waste in Andreeva Bay. So, I think that will be a good start, at least 
on the funding, because there is still a lack of funding. I think that 
it's lacking 700 or 800 million euros in order to clean out the 
Andreeva Bay. And you could argue that, well, this is something Russia 
should do. It has had a strong economy and they're, as you see, 
spending, building now eight to nine new nuclear submarines. Then they 
should also be doing that cleanup work themselves, they should afford 
that and prioritize that.
    But I think also that the Arctic Council is a good way. There's no 
need to create another vehicle. We have the Arctic Council, I think 
that is a very good, good vehicle for the international agenda, but 
also the bilateral agenda. Norway, Russia has had very good cooperation 
on the nuclear issue also during the latest Crimea crisis, because 
Russia sees this as maybe soft policy and where they can cooperate with 
Norway. And Norway has their own interest, as I said, fisheries and 
also tourism are the two main income sources in Norway, so it's 
important to keep the Arctic, especially the Norwegian part of the 
Arctic, clean from radioactivity.
    Mr. Massaro. Right.
    Mr. Bohmer. So they have their own interests there. So also the 
Norwegian Government could be a part of this agreement.
    Mr. Massaro. Either of you like to speak to that?
    Mr. Rahbek-Clemmensen. Yes.
    Mr. Massaro. Great.
    Mr. Rahbek-Clemmensen. Yes. Well, I'll just more or less second 
what Nils just said, that if I was the new Secretary of State, I would 
also go for an Arctic Council solution that just, in general, seems a 
lot more realistic. [Laughter.]
    That being said, the tectonic plates of U.S. foreign policy seem to 
be moving right now. And I would just also flag that if there's going 
to be a rapprochement between Russia and the United States, then it 
would be possible that we could see a total change. In that case, it 
could be possible, as I said, to do something along the lines as AMEC. 
And that would not only be good for Arctic nuclear governance, but it 
would also--could also perhaps be a way for Russia and the United 
States to reengage one another in a fairly--on a concrete matter, which 
would help U.S.-Russian relations. And that's what I have.
    Mr. Massaro. Julia, you'd like to add something?
    Ms. Gourley. Yes, I think I completely agree as well. And AMEC was 
quite a useful forum. I agree with both of you. And it was a safe 
topic. You know, working on environmental issues is fairly safe 
between--on a mil-to-mil basis between Russia and the U.S. And in fact, 
we, DOD and Norway, sort of tried to emulate AMEC a little bit through 
something called the Arctic Security Forces Roundtable, which is funded 
with defense, environmental international cooperation funding that DOD 
has called DEIC for short; defense, environmental international 
cooperation. The DEIC funding that was the basis for creating this 
Arctic security forces roundtable, which is the eight military--well, I 
sometimes say military--but the eight Arctic states plus the military 
engagement from--I think it's France, Germany, Netherlands and U.K.--is 
sort of an attempt to focus again on environmental issues mil-to-mil.
    I don't think Russia is very excited about it, though, because 
Russia prefers to do all Arctic engagements among the eight, and in 
some cases among the five, coastal states. But I would also add that, 
as far as we understand from where we sit, we see, we hear that and 
observe, that Russia very much likes the BEAC, or Barents Euro-Arctic 
Council forum, and, maybe to a lesser extent, the Council of the Baltic 
Sea States as regional places to deal with Arctic issues as well. But I 
think the Arctic Council seems to be the favorite place for Russian 
engagement on Arctic issues with the other countries, including, in 
some cases, on nuclear issues.
    Mr. Massaro. All right, great. Thank you very much.
    Let's go ahead and open the floor to questions. Do we have any 
questions?
    All right, Scott. Jordan's going to bring you a mic.
    Questioner. Thank you. My name is Scott Cullinane, I work for the 
House Foreign Affairs Europe Subcommittee.
    Nils, as you were describing the various possible ways that the 
stored nuclear waste could leak out or contaminate the environment, I'm 
curious if there's any real-time monitoring on that. If one of those 
scenarios you described began to happen, how long would it take for 
someone to notice it was happening?
    Mr. Bohmer. Well, there are several real-time monitoring equipment 
on the Kola Peninsula. So, you would, in theory--they are, in theory, 
online. So, in theory, you would know quite as soon as it happens. But 
I think that those online monitoring facilities will be taken offline 
very soon by the Russian authorities.
    Norway and Russia have an agreement on early warning on nuclear 
accidents; they have had that agreement for over 20 years, but it has 
never been used from the Russian side. They have now agreed on a new 
set of rules, ground rules, so that now Norway should be warned by 
Russia if any potential radioactive releases are coming.
    A couple of years ago, there was a fire on a nuclear submarine in 
Murmansk, which the Russian authorities did acknowledge; they claimed 
that the fire was put out, but the fire continued for 20 hours after 
authorities said that it was put out. So I think that, no, we will not 
know. We will read it in the media or we will find rumors on Facebook 
before that happens.
    And also, when it comes to the dumped material, which maybe has the 
most dramatic consequence if the water starts to leak into the 
reactors, there are no measurements there. There have been year-to-year 
Russian and sometimes Russian-Norwegian expeditions doing measurement 
around the wreck, making sure that there are no leakages out of that 
wreck, but there's no online measurement of that dumped material.
    Mr. Massaro. Julia, Jon, either of you like to add anything? OK, 
great. Thanks, Scott.
    Do we have any other questions?
    Alex?
    Mr. Tiersky. Thank you very much. Alex Tiersky, also with the 
Helsinki Commission.
    As the global security and political-military affairs adviser at 
the Commission, I promise not to ask you the typical question about the 
frightening Russian military deployments in the region. I've heard the 
message that that is not a huge concern from some of you before.
    What I would ask you is two words that I didn't hear from any of 
you specifically, which actually surprised me and that are in the 
security realm, that are directly related to this issue of nuclear 
waste, which is theft or diversion. And I'm wondering what the fora are 
for discussing concerns about theft or diversion.
    I mean, I very carefully was looking at the pictures of Andreeva 
Bay. I'm not sure if I'm pronouncing it correctly. But it looks like a 
facility where you were talking about reactor cores as being stored, 
not a great deal of security. To what extent is this an issue? Is this 
an element of the discussion that you used to promote the cause of 
cleanup and proper storage of facilities?
    And Julia, if I could ask you, is this a point of discussion in the 
Arctic Council specifically on theft and diversion? Thank you.
    Mr. Bohmer. Well, I think that compared to what the situation was 
in the 1990s, the situation in northwest Russia has been much more 
improved when it comes to security issues or the risk of theft of 
nuclear material. It is much more difficult for me, for example, to get 
onto the nuclear bases than it used to be in the 1990s. I could more or 
less walk freely with no security and no security at all. I think, 
speaking about northwest Russia, I think that the material storage is 
much better guarded today than it was 10, 15 years ago because the FSB 
has much more power now and there is a lot of bend and a lot of, also 
with U.S. assistance, on safety and security operations around the 
bases.
    There could be other areas in Siberia that are maybe less guarded 
where there has been less international attention. But I think 
northwest Russia is quite--it's relatively secure.
    Mr. Massaro. Yes?
    Ms. Gourley. As to the Arctic Council, we actually don't discuss it 
there. And I don't really know why. I think because, the best answer I 
can give is that the structure of the Council has been so 
environmentally focused and not so much on security matters. That said, 
the only explicit exclusion from the Council's mandate is military 
security, so talking about national security, environmental security, 
health security kinds of issues are well within its mandate.
    So, getting to Jon's point about the possible need for a new 
working group in the Arctic Council on nuclear security kinds of 
issues, that's actually something worth thinking about. That would be 
an obvious topic to take up.
    Mr. Massaro. Nothing to say on that one, Jon? All right, great.
    Any other questions? A chance to get your name in the Congressional 
Record. All right.
    Yeah, Mark, please? Jordan?
    Mr. Milosch. Hi, my name is Mark Milosch and I'm the Chief of Staff 
at the Commission.
    I'd like to pick up on the questions that Paul asked, which Paul 
and I talked about before, and maybe try to come at it from another 
angle or drill down a little further.
    On Camp Century, what occurred to me while you were talking about 
that was, maybe that's actually helpful, if we wanted to approach the 
Russians about work that needs to be done in cleaning up a mess in the 
Arctic. If we have some work to do, too, maybe that sets it up in a 
more helpful way, where it's not you need to do X, but it's rather it's 
we need to do something. So, if you had any thoughts on that, I'd be 
interested.
    But the bigger question would be on what's the best forum, 
organization? Part of thinking on that one was perhaps the U.S. is the 
worst figure to raise this issue because we're the ones who--if the 
United States shows up and says you have a lot of work to do in the 
Arctic, you know, we're the party they least want to hear that from. 
Maybe it comes better from some other country or in some kind of 
multilateral forum or from some kind of NGO. And at which point the 
question for us is, well, the Commissioners, Chairman would like to be 
constructively engaged on this. The Arctic Forum is really not a great 
one for our Helsinki Commission engagement or for our congressmen on 
the Commission to be engaged. So, any thoughts you have on that?
    And I would just add to that that maybe the answer is that it works 
better if it's not framed as Arctic, but as the world's oceans. I mean, 
there are a number of times U.S. bombers were going down, they had to 
jettison bombs during the Cold War and they're at the bottom of the 
ocean today, or planes that went down, subs that--we didn't scuttle 
them as far as I understand--but they went down. Or maybe it's not 
framing it geographically more broadly, maybe it's framing it 
thematically more broadly as cleanup rather than nuclear.
    Any thoughts you had on that would be helpful to us as Paul and I 
put our heads together, hopefully with you guys, and figuring out what 
would be a good way for the Chairman and Commission to be engaged on 
this.
    Thank you.
    Mr. Bohmer. If I may?
    Mr. Massaro. Go ahead, Nils.
    Mr. Bohmer. No, I think maybe--I think your last comment was that 
we should maybe focus away from the Arctic and maybe have a more global 
approach. I think legacy waste is a very good expression, because you 
have legacy waste in Hanford, you have it in Sellafield in the U.K., 
you have it--a lot of it in Mayak.
    I think there has been a lot of focus, there has been a lot of work 
going on there. But I think that the legacy waste generally, a broader 
term, there is a lot of work to be done, both here in the U.S., also in 
the U.K., also in Russia.
    And I think also, coming back to AMEC, I think one of the good 
things or the reason for the success was that it was trilateral. You 
had Russia, U.S. and tiny, little, innocent Norway as a third part. And 
I think that also made sure that we could be this kind of go-between 
guy now between Russia and the United States. And I think that that is 
also a good way forward.
    For example, in the center, maybe Denmark could be this kind of--or 
maybe they are too heavily invested. Or maybe Norway should--but there, 
I think it also would be good if the U.S. put a bit more effort in 
cleaning up in the Arctic, whereas they also have some RTGs in Alaska 
in the Arctic that could be dealt with, but yes.
    Mr. Massaro. Any other thoughts?
    Jon?
    Mr. Rahbek-Clemmensen. Yes, well, I'd like to say something about 
that because I think, actually, I think it's a really good idea. I 
normally I leave the diplomatic tactics to the people who actually do 
it, people like Julia. But I think you're quite right that if it can be 
framed as a project that's not, as you say, finger-wagging against 
Russia, then you have a better chance of actually doing something 
productive and constructive in that regard. I think that part of your 
question was actually quite brilliant.
    Regarding the second half of your question, would it be better if 
we didn't talk about nuclear waste as an Arctic problem, but as a 
global problem? If I was being devil's advocate, I would raise one 
concern. Whenever you have an Arctic issue, whenever someone begins to 
talk about the Arctic as a global issue, the alarm bells go off in 
Moscow and in Oslo and in Copenhagen, because these states--and in 
Ottawa as well--because these states really like to keep it as an 
exclusive club. And their biggest fear is that somehow the Arctic 
becomes a global issue, someone comes and takes the responsibility and 
the power to do things about the Arctic away from them and puts it in 
the U.N. or something. The greatest fear is an Arctic treaty.
    So, I think it's a good idea, but I would raise that there would be 
a lot of legwork in it to convince a lot of these Arctic countries that 
perhaps this is not an attempt to take away their power.
    Mr. Massaro. Excellent, thank you so much.
    Other questions? OK.
    Let me just ask a very short, very standard sort of follow-up 
question, and that's, you know, you guys have given us these great 
presentations today, lots to think about and lots of thoughts and 
recommendations, too. What would be the number one or top three things 
that the United States Congress should be doing right now on this 
issue?
    Julia?
    Ms. Gourley. Well, certainly funding the or providing or 
reinvigorating the----
    Mr. Massaro. Money, right? [Laughter.]
    Ms. Gourley. Cooperative Threat Reduction program and encouraging 
the reinvigoration also of the AMEC forum. And the mil-to-mil 
cooperation, which is largely dead now, at least between Russia and the 
U.S., and I think all the allies and Russia, which is certainly the way 
it has to be. But finding these noncontroversial areas, you know, as 
we've done in the Arctic Council. We've been able to sort of carve it 
out in a way, I mean, not entirely away from the Ukraine issues, and 
certainly if things happen and go south on that front, all bets may be 
off for the Arctic Council, too, but finding ways to get mil-to-mil 
cooperation back on track in areas that are nonthreatening and maybe 
not so controversial would seem like a number two after funding for 
various things like the Cooperative Threat Reduction program would be 
good places to start, I think, for Congress.
    Mr. Massaro. Any other thoughts?
    Mr. Rahbek-Clemmensen. Yes. I'm not an expert on congressional 
politics. [Laughter.] But I think that this could be an area where 
perhaps a new administration doesn't really have a set agenda and where 
it's actually possible to move something and move some thinking in the 
State Department and in the White House. And I think that would be my 
takeaway, that and more money, of course.
    Mr. Massaro. Nils?
    Mr. Bohmer. Well, I agree. And I think this important if you call 
it the Trump restart or whatever you think--[laughter]--no, but I think 
there's a need for dialogue between Russia or Moscow and Washington on 
military issues. And if you can have some sort of military-
environmental cleanup project, that could be this kind of soft project 
that could start up this dialogue. Because I think that dialogue has 
been very closed these couple of years. So, any project that makes this 
bilateral dialogue better would be very good.
    And I think doing this environmental project is easier to do than 
arms reduction. Yeah.
    Mr. Massaro. Well, great. If there are no more questions, all 
right, I'd like to thank our briefers one more time. Great 
presentations, great answers.
    Jon, very funny, ``Star Wars.''
    And let me also thank Jordan Warlick, intern at the Helsinki 
Commission, who basically pulled this whole thing together. Thank you 
very much, Jordan.
    And with that, the briefing is concluded.
    Thank you. [Applause.]
    [Whereupon, at 4:37 p.m., the briefing ended.]
SLIDE PRESENTATION BY NILS BOHMER

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 


            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
